                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

  Case Number: 1-03030014                                                                       Page 1 of 1



                  Our investigation was initiated based on allegations that Barbara Nye, a Center Director
          at a university,' and a PI and Co-PI on three NSF grants: had misused grant h d s to support her
          private consulting activities. Our initial investigation substantiated the allegations and found that
          Nye diverted NSF and university funds to pay for work related to her private consulting business.

                 We referred our findings to the U.S. Attorney's Office in the Middle district of
          Tennessee, where the assigned AUSA requested additional investigation. The US Attorney's
          Office offered to resolve the case by accepting a guilty plea fiom Nye for a single felony;
          however, Nye's defense attorney countered by offering to resolve the matter through a civil
          settlement. Consequently, settlement discussions ended. Nye retired fiom the university in
          February 2006.

                 On September 7,2006, Nye was indicted for mail and wire fraud related.to her use of
          NSF funds to pay university employees to travel and work on Nye's private consulting activities.
          On April 30,2007, Nye signed a plea agreement admitting that she committed a felony and
          submitted false statements to pay travel and salary charges with NSF funds for university
          employees to conduct work for her private consukting activities.

                 On May 1,2007, Nye entered a plea of guilty before the court for submitting false
          statements causing between $10,000 and $30,000 in loss to an NSF grant. On July 30,2007, Nye
          was sentenced to 6 months home confinement; two years probation; and restitution totaling


                 On December 17,2007, we submitted an Investigation Report to NSF recommending
          debarment of Nye for a period of five years.3 On April 25,2008, NSF sent a Notice of Proposed

                                                                                                        .'
          Debarment to Nye for a period of three years.4 On July 9,2008, NSF notified Nye that that she is
          debarred fiom receiving Federal financial and non-financial assistance until April 25,201 1


Ill                  Accordingly, this case is closed.




            See Attached Letter,"~oticei f proposed Debarment."
            See Attached Letter, "Debarment."


II
 NSF OIG Form 2 (1 1/02)
                                  NATIONAL SCIENCE FOUNDATION
                                     4201 WILSON BOLILEVARD
                                    ARLINGTON, VIRGINIA 22230

                                           December 17,2007


    OFFICE OF
INSPECTOR GENERAL




             To:      Arden L. Bement, Jr.
                      Director

       From:          Christine C. Boesz
                      Inspector General

     Subject:         ~ecommendation'for Administrative Action


             Attached is our summary of the facts related to the criminal conviction of
      Barbara Ann Nye, former director, Center for Excellence for Basic Skills at Tennessee
      State University.

             We recommend that NSF debar Dr. Nye and preclude her from serving as a
      peer reviewer, advisor, or consultant for a period of five years. We believe these
      actions will adequately protect both the public's and NSF's interests. The bases for
      our recommended actions are described in detail in the attached report. Because of her
      criminal conviction, the subject was not provided with a copy of this report nor was
      she provided an opportunity to comment.

            If you have any questions about the report or our recommendation, I would be
      happy to discuss them with you. My staff point of contact for this matter is




       cc:         Lawrence Rudolph, General Counsel
                                      Senior Advisor for the Integration of Research and
                   Education
    National Science Foundation
    Office of Inspector General




                  Investigation Report
                Case Number 103030014
                         17 December 2007


nus Corzfldential Investigation Iiepo~tis the propelty of the NSF OIG and nlay be disclosed outside
  NSF only by OIG under the Freedom of I~lformationand Privacy Acts, 5 U.S.C $$ 552,552a
                                                Executive Sumnary

Allegation:               Our investigation was initiated based on allegations that a PI and Co-PI on
                          three NSF awards' had used NSF award funds to support private
                          consulting activities.

Subject:                  Barbara Ann Nye, Ph.D, was the director of the Center for Excellence for
                          Basic Skills (Center) at Tennessee State University (TSU).

OIG
Investigation:           On April 25, 2003, Nye sent two teacliers enlployed by TSU on travel.
                         The travel was in furtherance of Nye's private consultant work, not the
                         NSF award. As PI, Nye was respo~?siblefor I-evie~ving     and verifying
                         expenses associated wit11 NSF a\vards. She abused her position of 11-ustby
                         k~iowi~lglyand \villfully submitting to tlie University two materially false
                         vouchers for the travel. The University paid the vouchers fro~llNSF
                         hnds, resulting in the false claim.

DOJ
Assessment:              An Assistant United States Attol-11ey(AUSA) for the Middle District of
                         Tennessee accepted the case. Nye ultimately pled guilty to one count of
                         kno\vingly and \villfully making and using a ~naterialfalse \vriting in
                         violati011of 18 U.S.C. $1001 a n d was sente~lcedto 6 lnotlths home
                         detention and two years probation, and I-equireclto pay restitution in the        '
                         amount of $25,598 of wliich $21,1 16 is t 4 . k repaid to IVSF. The court dicl
                         not preclude her from .teaching, conducting research, or otherwise ~ O I - k i n g
                         on a grant, so long as she does not-have a dil-ect role in tlie managelnent of     ",




                                                                                                                 ~
                         gl-ant funds.

OIG
Assessment:              Nye intentioiially submitted a false travel ~;oucherthat resulted in hami to            1
                         NSF and benefit to herself. T h e action was illaterial and wl-ongiy caused
                         NSF to pay at least $2 1,116 in reimbursement for work not in ful-tlierance
                         of NSF awards.

OIG
Recomme~ids:              Pursuant to 2 C.F.R. 5 180 et seq, and based upon the facts herein OIG
                          I-econ-unel~dsthat NSF debar Nye for five years and prohibit Nye from
                          serving as a peel- reviewer, advisor, or collsultant for five years f-?om the
                          final dispositio~iof this case.




'Nye was PT 01-Co-PT on granls fi-om NSF's Education and Human liesoul-ces Directol-ate: a Local Sys(emic
Change (1,SC) ; ~ u l n ~ -for
                            d $4.7 million fi-oin 1996-2003;
1) OIG Investigation

     a) Factual Background:

          We initiated our investigation based on allegations that the subject' iinproperly used
          grant h n d s in hrtherance of a private consulting business. The Subject was a Center
          director at a university2 and was PI or Co-PI on three NSF grants.3 Our initial
          investigation substantiated the allegations and found that, froin 1999 through 2003, the
          Subject and the subordinate4 knowingly and willfully diverted NSF grant finds away
          fi-0111 their intended purpose - to improve science and inath education in school-aged
          children - and used the grant finds instead to have work perfoiined in furtherance of the
          private consulting activities. Additionally, the Subject diverted University funds for the
          same iml31-opespulpose. We also found that, through her positio~isof authority as tlie PT
          on NSF awards slid as tlie director of the Centel- at the LJnivci-sity,the Subject caused
          NSF fi~rldsto be improperly paid to her as consult.i~lgfees. The Subject's abuse of these
          positions of po\ver and authority at the University, combined with hei- failure to make
          required conflict-of-interests disclosures about her consulting activities, enabled tlie
          Subject to conceal her scheliie fro111 University and NSF oversight and monitoring.'

     b) Referral to the Department of Justice

          We referrecl our findings to the United States Attoniey's Office in Nashville. Tlic
          assigned Assistant United States Attorney (AUSA) requested we continue our
          investigation. 6 Although our continued investigation revealed additional evidence and
          instances of fraud by the Subject, tlie AUSA offered to resolve tlie case by accepting a
          guilty plca from the Subject for a single felony count. The Subject refused the offered
          plea, on the advice of counsel, and insisted the matter should be resolved via crvil

I
  Dl-. ~ a r b a r aNye.
2
  Te~ulesseeState U~ii\;ersit);(TSU). Nye was the dil-ector of tile Center for Excellence for Basic Skills.
3
  T h e Subject was PI or Co-PI on three awards from NSF's Education and Human Resources Directorate:
1) ESI-9553905, a Local Systelnic Change (LSC] award fo'r $4,700,000 from 1996-2003; 2)
                                                                                            ; and 3)
                                                                                        The Local Systemic Change award, ESI-
9553905, is the a\vard LO \vhich thefalse \:ouchers were submitted.
   The subordinate was                            IJer home addiess was used as the private enterprise's address. The.
private enterprise provided evaluation and 11-ainingservices for school systems in science and math inst~uction,
sel-vices similar to those sel-vices funded under the NSF aillard.
   1.11sulnmary, our investigation found that:
a) T h e Subject caused $20,000 in salal-)Jand travel funding for TSU employees to b e dlvel-ted for 111-i\;ateconsulting
\vol-k paid to a colnpaliy at the Subordinate's home. These TSU employees perfoi-~nedthe ~ v o r kand t r a ~ e las
official TSU/NSF gl-ant duties.
b).The Subject and (lie Subol.dlnate I-ecei\:ed $35,000 in TSU s a l a ~ y(partially s u p p o ~ ~ ebyd NSF f ~ ~ r l d i nw11ile
                                                                                                                            g     the);
\vel-e pel-fol.nling pri\;ate consulting activities)
c) The Subject failed to disclose lo I'SU tlie outside c o n s ~ ~ l t i nacti\lities
                                                                           g          (bvel- $125,000 between 1999 and 2003). as
rec(ui~-ed  by NSF a ~ i dTSU policies.
d l Tile Subject recei\;eti 75% oi'thc salary payments Ooln her private consulting company. 'l'lie Subject supe~vised
the Siibo~.dinate(a local teachel.) from 1996 to 2002 \\lhile the Subel-dinate worked as a teaclier t~~ainer/]~rogl-am
director under all NSF gl-ant. l'lle Subject I~il-edthe Subordinate as a full-time TSU employee in 2002.
6
   The Subordinate died of cancer dul-ing the continuir~ginvestigation.
            settlement. In February 2006, during the course of settlement discussions, the Subject
            retired from the University.

            On Septeinber 7, 2006, a grand jury indicted the Subject for mail and wire fraud related
            to her use of NSF funds to pay University einployees to travel and work on the Subject's
            private consulting activities. On April 30, 2007, just prior to trial, the Subject agreed to
            plead guilty to a violation of 18 U.S.C. 5 1001, false statement. On May 1, 2007, the
            Subject signed a felony plea agreement7 admitting that in April 2003 she sent two
            University employees on travel in support of her private consultiiig activitis8 She
            admitted that she abused lier position as administratorIP1 of the NSF award by requesting
            NSF reilnbursement for the related salary and travel. Consequently, the Subject caused
            the University to frauduleiitly reimburse the salary and travel froin NSF funds, resulting
            fi.0117 the false statement.


            On July 30, 2007, tlie Subject was sentenced to 2 years probation, including 6 ~iionthsof
            home detention, required to pay restitutioii of $25,598, of which $21,116 is to be paid to
            NSF, and batred from adininisteritig, in whole or in part, educational grant funding from
            any federal, state or local governmental entity.' Unfortunately, the conditions of her
            probation do not preclude lier- from teaching, conducting research, or otherwise working
            under a giant, so long as she is not directly iilvolved in the management of grant funds. 1 0

2) OIG Assessn~erlt

     a) Debarment Analysis:
         Subject's Actions
            The Subject committed a ci-i~ninalact by knowingly and willfully making and using a
            inaterial false writing and document when presenting to the University two travel
            vouchers seeking reimbursement expenses from an IVSF a\vard to the University, for a
            trip that benefited the Subject's private consulting business.,

            Subject's Intent
            The Sublect knew the tlavel claiin to be false and tliat the Un~vei-sity'semployees had
            been doing work in furtherance of the Subject's private consulting business. She also
            knew tliat NSF fiiilds would be used to pay for tlie tra\/el nlthougli the travel did not
            benefit tlie NSF award.

            Burden of Proof
            When NSF brings a debai~nentaction i t has tlie burden of proving, by the preponderance
                                   a
            of evidence, that cause foi- debal-ment exists. I I In this i~istaiice,that burden is met: the
            Sul3sect pled guilty via plea agreement and the court accepted the plea and handed dotvn a

    See 11Ieri agl-cement (Tab 1 ) .
' The ern1,lo)~eesi l ~ ~ ~ o l belie\led
9
                                ved                                                of the Univel-siiy's NSF alvard.
                                          chai tlieil- tl-avel \+!as in fu~-(t~el-ance
   See Iudgment, 12. 3; Special Conditio~lNo. 4 (l'ab 2 ) .
" "Nothing    in this co~lditionsliall preclude the defendant ffom ,te.acliing, conducting research, or othel.\vise w o ~ - k i r ~ g
i n positions that do not involve direct fiscal responsibilit)~for- managi~iggrant fl~nds." Judgment, p. 3, Special
Condit.iou No. 4 (Tab 2).
 " 2 C.F.R. $$180:850, 180.855 (2007).
           sentence. By accepting the plea agreement, the Subject accepts that the preponderance of
           evidence indicates that she knowingly and willfully violated 18 U.S.C. 5 100 1. NSF inay
           debar a person for conviction of making a false statement.I2
                  I


           Relevant Factors
           The debarment regulation lists 19 factors that the debarring official must ~ o n s i d e r . ' ~
           Listed below are those relevant to the instant matter.

           i1         Actual or Potential Harm or 1mpactI4
                      The Subject's subiiiission of materially false documents caused NSF to reimburse
                      the University $21,116 for work done in furtherance of the Subject's private
                      business enterprise.

           ii)        Role in ~ ~ r o n g d o i t ~ g "
                      The Subject dil-ected two University en~ployeesto travel in furtherance of the
                      Subject's private busiiiess enterprise andwas solely responsible for knowingly
                      submitting a false voucher. Hel- position of power at tlie Uniuersity enabled lies to
                      subniit the false statement. The Subject knowingly and willfi~llysub~nitteda false
                      voucher; she initiated the scheme; and she alone was responsible fol- presenting
                      the false voucher to the Univei-sity.

                      As a result of this and other schemes, the Subject was able to ii~creasetlie profit
                      made by lier private business enterprise at the expense of NSF and the University.
                      The Subject was the pl-imary beneficiary of the profit of the private consulting
                      work and received 75% of such revenues, approxiniately $ 1 10,000. Furt11ermo1-el
                      the Subject failed.to properly disclose her .consulting activities on her yearly .
                      conflict-of-interests (COI) forms as required by both NSF and the University fi-om
                      2001-2003. By filing false COI f o ~ ~ l ishe
                                                                 s , was able to avoid detection oi'hel-
                      sclie~iie.

           111)       Acceptance of ~ e s ~ o n s i b i lI "i t ~
                      Dur~ngsentenc~ng,the court found that the Subject accepted responsibll~tyfor lier
                      actions.

           iv)        ~oo~eration"
                      Although the S.ubject nominally coopel-ated with tlie investigation by agreeing to
                      be interviewed twice, the content of lies interviews served only to obscure her role
                      in the private business enterprise and the misuse of NSF funds. She used the
                      interviews as a foruin to discount lier actions and to cast blan~eon others. OUI-
                      investigation revealed facts contrary to her assel-tions in that she orchestrated both


I'   2 C.lz.li
             $180.800(a) (3) (2007).
''2 C.17.R.
         180.860(2007).
'92.1-.I<.
       180.860(a) (2007).
     2 C.F.R.
            130.560(f) (2007j.
'9
 C.l;.li.
        1.80.860
               (g) (2007).
         180.860(I)
" 2 C.F.R.        (2007).
                     the scheme to use NSF funds to cover costs generatedby her private business
                     enterprise and the scheme to subinit the vouchers ultiinately paid from NSF funds,,
                     It is clear that she, more than anyone else, benefited from her schemes. Even
                     when faced with the evidence, it was not until the night before trial was due to
                     start that she finally accepted a plea agreement.

          v)     '   Pervasiveness of Wrongdoing within the Subject's Organizationl*
                     Such wrongdoing does not appearto be pervasive at the Subject's University. 11-1
                     fact, the Subject was able to get the University's einployees to perform work for
                     her private consulting business only because the e~nployeesbelieved they were
                     doing legitimate work for the University.

          vi)        Positions ~ e l d ' ~
                     As the director of a Uni\:essily centel-, the Subject held a position of tl-ust \vitliin
 C                   the organization. She also held a position of trust with regard to the-NSF a~val-ds
                     at issue, as the PI or Co-PI on the awards. It was because of her position that the'
                     Subject was able to engage in the act of wrongdoing. I n her plea ag-eeme~it,the
                     Subject adlnits that, due to her positions as the director of the Center for
                     Excellence for Basic Skills and as the PI on the NSF award, "in comii~itting.this
                     offense, she abused a position of trust."20

          vii)       Other factors2'
                     The Subject accepted a plea agreement 011 May 1, 2007, to one count of 18 U.S.C.
                     fj 100 1 resulting in 6 ~ ~ i o n t home
                                                         h s confinement, 2 years probation and repayment
                     of $25,598, of whlcti $ 2 1 ,l 16 is to be repaid to NSF.

b) Participation in NSF's Processes

          NSF's "~l~erit review process is at tlie very heart of NSF's selectio~iof tlie projects
          thl-ough a~liicliits missioii is achicved.''" Steivardsliip of tlie merit system is a goal of
          NSF's cui-reiit strategic plan by which NSF seeks to "conti~~ue      as an exemplar in science
          ethics" 23 by working "to recruit and select highly qualified reviewers and p a n e ~ i s t s " ~ ~ ~
          "further build public ti-~st."'~Achieving this goal allows NSF to maintain "a credible,
          efficient merit revie\v s y s t e n ~ . ~ ' ~ "

          Pai-ticipation in merit review as a panelist or ad hoc reviewer is a privilege. It is a
          confidetltial, i~ivitationaltaskbestowed 011 trusted iiie~iibersof tlie scielitific community.
          NSF demonstrates its coin~nitineiitto maintaining the high caliber of its mel-it revie\v

 C.F.R. 180.860 u) (2007).
'9
''2 C.F.R.
         180.860 (k) (2007).
20  See Plea Agreelnenl, 11 5 (Tah I).
"   2 C.1-.li 180.860 (s) (2007).
22
      1Zepol.l to (he National Science Fou~dalion'sblel-il lievie\l; 1'1-ocess,Fiscal Year 2006." 1., 4.
     l'



2 3 f L l ~ ~ \ ~ In  t i i ~ g Futul-e: Strategic Plan 13' 2006-20 1 1 ," 13. 1 I
                  e ~America's
2 4 i d . a t 10.
25 ~ d at. 1 1
26 '7liel3ol-t to the National Science Foundation's Merit lieview Process, Fiscal Year 2006," p. 22.
system by routinely prohibiting scientists who have committed research misconduct, even
those not debarred, from being invited to participate in the merit review process.

In the instant case, the Subject has admitted to a gross violation of a position of tmst and
shown total disregard for NSF rules and federal law. She has demonstrated a thorough
lack of the qualities that NSF seeks in those whoin it permits to participate in its merit
review process. Furthermore, if IVSF goes so far as to debar the Subject, it would stand to
reason that NSF would not want to use her in any capacity, much less at the heart of its
merit review process.
                                                                                               I
Because of her extensive backgrouild in education, the Subject possesses the sl<illsto be
hired to work on 01-manage federal alvards, in spite ofthe seiitence. In order to fillly
pi-otect the federal interest we I-ecoinmend that NSF:

1) debar the Subject for a period of five years, and
2) preclude the Subject from serving as all NSF ~ n e r reviewer,
                                                        ~t        advisor, or consultanl
fol- five years.
                                   NATIONALSCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230




     OFFICE OF THE
    DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED

Ms. Barbara A. Nye




       Re: Notice of Proposed Debarment


Dear Ms. Nye:

This letter serves as formal notice that the National Science Foundation ("NSF") is proposing to
debar you from directly or indirectly obtaining the benefits of Federal grants for a period of three
years. During your period of debarment, you will be precluded from receiving Federal financial
and non-financial assistance and benefits under non-procurement Federal programs and
activities. In addition, you will be prohibited fiom receiving any Federal contracts or approved
subcontracts under the Federal Acquisition Regulations ("FAR). . Lastly, during your debarment
period, you are barred from having supervisory responsibility, primary management, substantive
control over, or critical influence on, a grant, contract, or cooperative agreement with any agency
of the Executive Branch of the Federal Government.


Reason for Debarment

Your debarment is based upon a referral fiom NSF's Office of Inspector General ("OIG").
NSF's record demonstrates that you pleaded guilty to a charge of making a false statement, which
enabled you to misappropriate NSF funds for your own use. You were sentenced to two years
probation, including G months of home detention, and required to pay restitution of $25,598, of
which $21,116 is to be paid to NSF.
Regulatory Basis for Debarment

Pursuant to 2 CFR 180.800, debarment may be imposed for:

(a) Conviction of or civil judgment for -

(1) Commission of fraud or a criminal offense in connection with obtaining, attempting to obtain,
or performing a public or private agreement or transaction; or

***
(3) Commission of embezzlement, theft, forgery, bribery, falsification or destruction of records,
making false statements, tax evasion, receiving stolen property, making false claims, or
obstruction of justice; or

(4) Commission of any other offense indicating a lack of business integrity or business honesty
that seriously and directly affects your present responsibility.

In any debarment action, the government must establish the cause for debarment by a
preponderance of the evidence. 2 CFR 180.850. If, as in this case, the proposed debarment is
based upon a conviction or civil judgment, the standard of proof is met. Id. Therefore, your
conviction for making a false statement supports a cause for debarment under 2 CFR
180.800(a)(1),(3), and (4).


Length of Debarment

Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR 180.865. Having considered the seriousness of your
actions, as well as the relevant aggravating and mitigating factors set forth in 2 CFR 180.860, we
are proposing debarment for a period of three years.


Procedures Governing Proposed Debarment

The provisions of 2 CFR Sections 180.800 through 180.855 govern debarment procedures and
decision-making. Under our regulations, you have 30 days after receipt of this notice to submit,
in person, or in writing, or though a representative, information and argument in opposition to
this debarment. 2 CFR 180.860. Please note, however, that because your debarment is based on
a conviction, you will not have an opportunity to challenge the facts underlying the conviction.
2 CFR 180.830(a). Comments submitted within the 30-day period will receive full consideration
and may lead to a revision of the recommended disposition. If NSF does not receive a response
to this notice within the 30-day period, this debarment will become final.
Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arli,ngton,
Virginia, 22230. For your information, we are attaching a copy of the Foundation's regulations
on non-Procurement debarment and FAR Subpart 9.4.




                                                   Sincerely,



                                                   Kathie L. Olsen
                                                   Deputy Director



Enclosures:
Investigative Report
IVonprocurement Debarment Regulations
FAR Regulations
                                   NATONALSCENCEFOUNDATION
                                        4201 WIL90N BOULEVARD
                                       ARLINGTON, VIRGINIA 22230




     OFFICE O F THE
    DEPUTY DIRECTOR




VIA CERTIFIED MAILiRETURN RECEIPT REQUESTED

Ms. Barbara Nye



       Re: Debanrr err1

Dear Ms. 1Vye:

On April 25,2006, the National Science Foundation ("NSF") sent you a Notice of Proposed
Debalment in which NSF proposed to debar you fi-on1 directly o r indirectly obtaining the b e n d t s
of Federal grants for a period of three years. The Notice sets forth in detail the circumstances
giving rise to NSF's decision to propose your debalinent. Specifically, NSF indicated in the
Notice that the proposed debarment is based upon your conviction for 111aking a false staternei~~.
In that Notice, NSF provided you with thirty days to respond to the proposed debarment.

011May    21,2008, you filed a timely response to the Notice. In this response, you urged NSF to
reconsider its decision. to debar you for several reasons including: (1) your history of public
service and high moral character; (2) the fact that you have paid full restitution to NSF; and (3)
the fact that debannent would preclude you from being gainfully employed until your sixties. As
detailed below, I am not persuaded by your arguments.

First, public service and moral character are not listed as mitigating factors in the g o v e m n ~ n t -
wide debannent regulations, and I do not believe that they should ii~fluencemy decision 011
whetner to debar you. Moreover, although your dedication to public service is laudable, you did
not exhibit high moral character in engaging in the criminal conduct for which you pled guilty.
Second, in proposing your debarment, 1 took into account the fact that you had agreed to pay
restitut~onto NSF in accordance \vith the court's order. Thus, I will not consider your fulfillm.ent
of that obligation as a fullher n~itigatlngfactor. 1-astly, debal-lnent, in al?d of ilsclf, does ncjL
preclude you Sronl being gainfully employed; it merely Iin~itsthe types of positions for wh~chyou
may seek employment.

For all of the foregoing reasons, you are debarred until April 25, 201 I . Debarment precludes you
from receiving Federal financial and non-financial assiHance and benefits under non-
procurement Federal progralns and activities unless an agency head or autlmrized .desigllae
makes a detem~inationto grant an exception in accordance with 2 CFR Section 1FD.155. NOII-
procurement transactions include grants, cooperative agreements, scholarships, fellowsl~ips,
contracts of assistance, loans, loan guarantees, subsidies, insurance, payments TorspeciEed use,
and donation agreements.

In addition, you are prohibited fiom receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations ("FAR") at 48 CFR Subpart 9.4 for Ihe period ofdhis
debamlent. 2 CFR Section I SO. 140. During the debarment period, you may not have
supervisory responsibility, primary management, substantive control over, or.critica1 influence
on, a grant, contract, or cooperative agreement with any agency of the Executive Branch of the
Federal Govenmment.

If you have any questions regarding the foregoing, please contact          Assistant General
Counsel, National Science Foundation. Office of the General Counsel, 4201 Wilson Boulevard,
Room 1265, Arlington, Virginia, 22230.




                                                    Sincerely,



                                                    Kathie L. Olsen
                                                    Deputy Director
